2311 Douglas Street CC : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com.
Est. 1923, '@ .

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 20-18

ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF LOS ANGELES
COUNTY POLICE CHIEFS’ ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF THE
JUDGMENT BELOW in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 6527 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Kense. Q. Loo Oude h, Bale

Affiant 40463

   

S GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023

   
   

Notary Public
